               U.S. Department of Agriculture

                  Office of Inspector General
                              Western Region




      Audit Report


  Food and Nutrition Service
Summer Food Service Program
      State of Nevada




                     Report No. 27099-31-SF
                                August 2004
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                        Western Region - Audit
                                     75 Hawthorne Street, Suite 200
                                    San Francisco, California 94105
                                 TEL: 415-744-2851 FAX: 415-744-2871




DATE:         August 24, 2004

REPLY TO
ATTN OF:      27-099-31-SF

SUBJECT:      Summer Food Service Program
              State of Nevada

TO:           Allen Ng
              Regional Administrator
              Western Region
              Food and Nutrition Service

ATTN:         Kathleen Burks
              Director of Financial Management


This report presents the results of our review of a Summer Food Service Program sponsor in the State
of Nevada. Your written response to the draft report is included as exhibit B to the report. Based on
the information provided in the response, we agreed with the proposed action. In order to reach
management decision for Recommendation no. 1, we will need documentation to indicate that an
account receivable has been established.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing
the corrective action taken or planned and the timeframe for implementation of the recommendation
for which management decision has not yet been reached. Please note that the regulation requires a
management decision to be reached on all recommendations within a maximum of 6 months from
report issuance.

We appreciate the cooperation and assistance provided by your staff during our audit.



\s\
SAM W. CURRIE
Regional Inspector General
  for Audit
Executive Summary
Food and Nutrition Service - Summer Food Service Program - State of Nevada

Results in Brief    This report presents the results of our audit of the Nevada Department of
                    Education’s (NDE) internal audit of and subsequent claim against one of its
                    Summer Food Service Program (SFSP) sponsors. We conducted this audit in
                    response to a whistleblower complaint that alleged a number of improprieties
                    in NDE’s audit of the sponsor.

                    During our audit, nothing came to our attention to validate the allegations
                    made by the whistleblower. However, we did find that an NDE internal
                    auditor did not recommend that a claim be established against the sponsor for
                    failing to justify its August and September 2001 claims, which totaled
                    $229,964. The NDE auditor mistakenly believed that an internal
                    memorandum precluded the establishment of a claim for these two months.
                    We concluded that NDE should not have excluded these months from the
                    audit.

Recommendations
In Brief            We recommend that the Food and Nutrition Service (FNS) instruct the
                    Nevada Department of Education to revise its current claim against the
                    sponsor to reflect the additional questioned costs of $229,964.

Agency
Response            In its written response dated August 13, 2004, the Food and Nutrition Service
                    concurred with the report finding and recommendation. The complete written
                    response is shown in exhibit B of the audit report.

OIG Position        We agreed with the Food and Nutrition Service’s proposed action. In order
                    to reach management decision, we will need documentation to indicate that
                    an account receivable has been established.




USDA/OIG-A/27099-31-SF                                                                    Page i
Table of Contents

Executive Summary .................................................................................................................................i

Background and Objective .................................................................................................................... 1

Finding and Recommendation............................................................................................................... 2

    Section 1 Overpayment...................................................................................................................... 2

        Finding 1             NDE Needs to Revise Its Claim Against The Sponsor ........................................... 2
                                 Recommendation No. 1.................................................................................... 3

Scope and Methodology.......................................................................................................................... 4

Exhibit A – Summary of Monetary Results......................................................................................... 6
Exhibit B – FNS Response to Draft Report ......................................................................................... 7




USDA/OIG-A/27099-31-SF                                                                                                                    Page ii
Background and Objective
Background                       The Summer Food Service Program (SFSP) helps children from lower-
                                 income families have nutritious meals when school is out. Section 13 of the
                                 National School Lunch Act (42 U.S.C. 1761) authorized the Secretary of
                                 Agriculture to assist States through grants-in-aid to conduct nonprofit food
                                 service programs for children during the summer months, May through
                                 September, and at other approved times.

                                 The U.S. Department of Agriculture’s Food and Nutrition Service (FNS)
                                 administers SFSP at the national level while the Nevada Department of
                                 Education (NDE) does so for the State of Nevada. Locally, sponsoring
                                 organizations train staff, prepare meals, supervise delivery, monitor feeding
                                 sites, and perform other day-to-day activities. The sponsors are reimbursed
                                 for their expenses based on meals served and documented costs. Program
                                 expenditures nationwide for fiscal years 2001, 2002, and 20031 were $246
                                 million, $252 million, and $257 million, respectively.

                                 Based on a whistleblower complaint received on January 5, 2004, the Office
                                 of Inspector General (OIG) reviewed NDE’s claim against one SFSP sponsor.
                                 The complaint alleged that NDE (a) failed to finalize an audit report that
                                 would have required the sponsor to return about $700,000 in fraudulently
                                 obtained Federal funds, and (b) altered its records to hide the theft of these
                                 funds.

Objective                        The objectives of this audit were to evaluate the complaint, and determine
                                 whether NDE correctly billed a sponsor for overpayments.

                                 See the Scope and Methodology section at the end of this report for details of
                                 our audit methodology.




1
    Fiscal year 2003 data is preliminary as of February 2004

USDA/OIG-A/27099-31-SF                                                                                  Page 1
Finding and Recommendation
Section 1 Overpayment


Finding 1                      NDE Needs to Revise Its Claim Against The Sponsor

                               An NDE auditor did not recommend that a claim be established for all of the
                               overpayments made to a SFSP sponsor. The auditor misinterpreted an
                               internal memorandum to preclude the recovery of overpayments to the
                               sponsor for the months of August and September 2001. As a result, the audit
                               and NDE’s consequent bill did not include a claim for two months’
                               overpayments, which totaled $229,964. NDE needs to revise its claim against
                               this sponsor to include these overpayments.

                               Federal regulations2 require State agencies to disallow any portion of a claim
                               for reimbursement and recover any payment to a sponsor if a sponsor’s
                               records do not justify all costs and meals claimed.

                               NDE conducted a review of the sponsor, and used the results of the review as
                               a basis for establishing a claim against the sponsor. The auditor summarized
                               his review in a memorandum, dated December 15, 2003, to the Deputy
                               Superintendent of Fiscal Services. In that memorandum, the auditor
                               recommended that a claim be established against the sponsor for $230,230.
                               The Deputy Superintendent concurred with that recommendation and billed
                               the sponsor. However, the auditor did not recommend collecting the
                               overpayments made to the sponsor for the August ($128,022) and September
                               ($101,942) 2001 claims totaling $229,964, even though there was no
                               supporting documentation to justify the claims.

                               The auditor stated that he was aware that the sponsor did not have any
                               records but an internal memorandum, dated January 7, 2002, prohibited him
                               from recommending that a claim be established for these two months. The
                               memorandum stated: “…we recommend the suspension of all further
                               payments to (the sponsor) them until we are able to have a meeting with you
                               to discuss the findings…”. Our review of the memorandum noted that all
                               payments to the sponsor were to be suspended until the audit was completed.
                               The memorandum did not preclude the auditor from recommending that a
                               claim be established against the sponsor for failing to justify its’ August and
                               September 2001 claims.

                               NDE agreed that based on our review of the internal memorandum and the
                               regulations, a claim should be established against the sponsor for not

2
    7 CFR § 225.12 (a) dated January 1, 2003

USDA/OIG-A/27099-31-SF                                                                                 Page 2
                   justifying its August and September 2001 claims. FNS concurred that NDE
                   should establish a claim against a sponsor if they are unable to justify a claim.

                   In February 2004, NDE established a claim against the sponsor for $230,230.
                   However, NDE’s request for repayment was returned as undeliverable.
                   Accordingly, we recommend that NDE revise its claim to reflect the
                   additional questioned costs of $229,964 and re-bill the sponsor for the total
                   questioned costs of $460,194.

Recommendation No. 1

                   Instruct NDE to revise its claim to reflect the additional questioned costs of
                   $229,964 and re-bill the sponsor.

                   Agency Response In its written response to the draft report, dated August
                   13, 2004, FNS concurred with the finding and recommendation. FNS agreed
                   to instruct NDE to re-bill the sponsor and revise its claim to reflect the
                   additional questioned costs of $229,964.


                   OIG Position We agreed with FNS’ proposed action. In order to reach
                   management decision, we will need documentation to indicate that an
                   account receivable has been established.




USDA/OIG-A/27099-31-SF                                                                       Page 3
Scope and Methodology
                   We reviewed the documentation used by NDE for its audit of the sponsor,
                   Jump Start, Inc., for the period October 1, 2000, to November 30, 2001.
                   Audit fieldwork was performed in March of 2004.

                   To accomplish our audit objectives, we performed audit work at the FNS
                   Regional Office in San Francisco, California, and the NDE in Carson City,
                   Nevada.

                   To complete our objectives, we performed the following steps and
                   procedures:
                   •     We obtained and reviewed all applicable laws and regulations relating to
                         administering and operating the SFSP.
                   •     We met with the complainant to obtain an understanding of the allegations
                         and to obtain additional background information.
                   •     We spoke to the complainant’s former supervisor to obtain a further
                         understanding of the allegations and to obtain additional background
                         information.
                   At the FNS regional office:
                   •     We interviewed FNS regional office officials to obtain their opinion on the
                         allegations identified in the complaint and NDE’s administration of the
                         SFSP.
                   •     We reviewed the latest management evaluation report completed by the
                         FNS regional office in fiscal year 2001 on NDE’s administration of the
                         SFSP.
                   •     We reviewed correspondence pertaining to the sponsor, Jump Start, Inc.
                   At the NDE office:
                   •     We interviewed NDE officials to obtain their opinion on the allegations
                         identified in the complaint and to obtain background information on
                         specific sites identified in the complaint.
                   •     We reviewed files to determine the delays NDE encountered in completing
                         the audit of the sponsor.
                   •     We reconciled the amount identified in the whistleblower complaint with
                         the claim established against the sponsor.
                   •     We reviewed the documentation and workpapers NDE used to prepare the
                         final audit report to determine if the amount billed to the sponsor was
                         accurate and supported.

USDA/OIG-A/27099-31-SF                                                                       Page 4
                   •     We also interviewed NDE officials to obtain the related payment
                         information and to understand the SFSP computer system.

                   Our audit was conducted in accordance with generally accepted Government
                   auditing standards.




USDA/OIG-A/27099-31-SF                                                              Page 5
Exhibit A – Summary of Monetary Results
                                                              Exhibit A – Page 1 of 1



 Recommendation
                         Description         Amount           Category
     Number


        1          NDE needs to revise its   $229,964   Questioned Costs –
                   claim against the                    Recovery Recommended
                   sponsor to reflect
                   additional questioned
                   costs




USDA/OIG-A/27099-31-SF                                                      Page 6
Exhibit B – FNS Response to Draft Report
                                           Exhibit B – Page 1 of 1




USDA/OIG-A/27099-31-SF                                   Page 7
Informational copies of this report have been distributed to:

Agency Liaison Officer, FNS                          (3)
Government Accountability Office                     (1)
Office of Management and Budget                      (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division      (1)
